if 9=1245
filed
APR 1 5 2020
|utomeFcToijrtLi^k

IN THE
SUPREME COURT OF THE UNITED STATES

Samuel Kwushue
PETITIONER
vs.

United States of America
RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
United State Court of Appeals for the Eleventh Circuit.
PETITION FOR WRIT OF CERTIORARI
Samuel Kwushue 67311-019
1
6001 Kahiti Trc.
Union City, GA 30291
404-477-9905

QUESTION(S) PRESENTED
Whether the United States Court of Appeals for the Eleventh Circuit
erred in denying a Certificate of Appealability (COA) to review the denial of
Petitioner’s Constitutional claims pursuant to 28 USCS 2255?

f

i

PARTIES TO THE PROCEEDINGS
Samuel Kwushue, Petitioner
United States of America, Respondent
STATEMENT OF RELATED CASES
•

United States of America v. Samuel Kwushue, No. 1-15-CR-398- SCJ-JFK U.S.
District Court, Northern District of Georgia. Atlanta Division. Judgment
entered August 19, 2016;

•

United States of America v. Samuel Kwushue, Appeal Docket # 16-15683, U.S.
Court of Appeals for the Eleventh Circuit. Opinion entered October, 2018

•

Kwushue v. United States of America, U.S Supreme Court.Docket # 18-6279.
Certiorari denied, November 5, 2018.

•

Samuel Kwushue v. United States of America, No.l-18-CV-5591 SCJ-JFK,
United States District Court Northern District of Georgia. Atlanta Division.
Order denying motion to vacate pursuant to 28 USCS 2255 and application for
'i

Certificate of Appealability entered June 27, 2019.
•

Samuel Kwushue v. United States of America, U.S Court of Appeals for the
Eleventh Circuit, No.19-12579 Order denying Petition for Certificate of
Appealability entered December 19,2019

•

Samuel Kwushue v. United States of America No. 19-12579, U.S. Court of
Appeals for the Eleventh Circuit, Order denying Motion for Reconsideration
entered February 10, 2020.
u

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

ii

TABLE OF AUTHORITIES

v

OPINIONS BELOW.

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED....... 2
STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

31

CONCLUSION

32

ui

INDEX TO APPENDICES
APPENDIX A: Order of the United States Court of Appeals for the Eleventh
Circuit denying Certificate of Appealability (COA) of December 19
2019.

APPENDIX B: Order of the United States Court of Appeals for the Eleventh
Circuit denying reconsideration of February 10, 2020.

APPENDIX C: Opinion of the United States District Court for the Northern
District of Georgia denying 2255 motion and COA of June 27, 2019.

IV

TABLE OF AUTHORITIES CITED
CASES
NUMBER

PAGE(S)

Barefoot, 463 U.S. at 893, n.4.

6

Boschen, 845 F.2d at 922

29

Buck v. Davis, 137 S. Ct. 759, 777 (2017)

3

Cross v United States, 893 F.2d 1287(llth Cir. 1990)

29, 30

Evitts v. Lucey, 469 U.S. 387, 396, 105 S. Ct. 830, 83 L. Ed. 2d 821 (1985);

28

Fasulo vs. United States, 272 U.S 620; 71 L.Ed 443 (1926)

11

Handing v. United States, 418 U.S. 87, 117 (1974).

10

Henderson v Morgan 426 US 637 (1976)

21

Hill v. United States, 368 U.S. 424, 426—27 (1962)

9

Hinton v. Alabama, 134 S. Ct. 1081, 1089 (2014).

24

Johnson v. Zerbst, 304 U. S. 458, 464-465,

21

Kwushue v. United States

139 S.Ct 473 2018

v

3

Louisville Nashville Railroad Co. v. Mottley, 211 U.S. 149, 152,
29 S.Ct. 42. 53 L.Ed. 126 (1908)

10

United States v Maxwell 579 F.3d 1282(11th Cir.2009)
Matire v Wainwright, 811 F.2d 1430. 1435 (11th Cir, 1987)
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)
Mckay v United States, 657 F.3d 1190, 1196-97 (11th Cir. 2011)
Murray v.Carrier, 477 U.S.478 (1986)

10, 19
29
2,3

13
5, 9,12,13,20

McCarthy vs. United States, 394 U.S. at 467, 89 S.Ct. at 1171
Quoting Advisory Committee for Criminal Rules.
Padilla v Kentucky, at 366, 130 S.Ct. 1473
Parodies 98 F.3d 1266(11th Cir. 1996)

21, 22
23

14, 25

Parr v United States, 363 U.S 370 (1960)

15

Slack v, McDaniel, Docket #98-6322

5

Slack v. McDaniel, 529 U.S. 473 (2000)

3, 6

Smith v. O'Grady, 312 U. S. 329

22

Stoufflet v. United 757 F.3d 1236, 1239(llthCir, 2014)
vi

10,12

Strickland u Washignton, 466 U.S. at 685

23, 24, 28

United States v. Addonozio, 442U.S.178, 185 (1979).4

8/9

United States v Aleman 832 F. 2d 142 (11th Cir. 1987)

18

United States v Boatner, 966 F.2d 1575 (11th Cir; 1992)

18

United States v. Bousley: 523 U.S 614, 622, 118 S.ctl604.1610,
140 L.ED. 2d 828 (1998)

12

United States v. Cronic, 466 U.S. 648, 656 (1984).
United States v Kwushue 735 F. App’x 693,^694 (11th Cir. 2018)
United States v Maxwell, 579 F.3d 1282(11th Cir. 2009)
United States v. O'Neill, 767 F.2d 780. 787 (11th Cir. 1985).
United States v Peter, 310 F.3d 709 (11th Cir. 2002).
United States v. Scott, 136 F. App’x 273 (11th Cir. 2005).

28
3

14, 25
18
9, 11
23

United States v Tucker, 404 U.S 443, 477. 92 S.Ct. 589,
591, 30 L.Ed. 2d 592 (1972)

18

United States v Takhalov, 827 F.3d 1307(llth Cir. 2016).
United States v Tomeny; 144 F.3d 749 (11th Cir 1998)
vu

11, 14
8

STATUTES AND RULES
United State Const., V,and VI Amend.

2, 21

(1) 18 USC § 1343

3,7,9,11,13,14,19,21,24,25

(2) 28 USCS 2255

2,4,7,8,9,17,19,23

(3) 28 USCS 2253(c) (1) (B)

2,4

(4) 28 USCS 2253 (c) 2

2,4,6

(5) 7 CFR, 274.8(10) (i)

13, 15

(6) Fed.R.Crim. P. 7(c)(1)

10,21

(7) FRCP, Rule 11

21

(8) Fed.R. Crim.P. 11(b) (3)

4,22

(9)Federal Rules of Criminal Procedure Rule 32

16

(lO)FRCP.Rule 32(c) (3) (D),

13

(ll)USSG 3Bl.ln.3 (F) (ii)

26

OTHER:
(1) American Bar Associations standard 4-9.2 (g)
(1) https://www.iustice.gov/ossf/briefyslack-v-mcdaniel-amicus-merits.

28

6

(2) www.Call.uscourts.gov. Oral Argument Audio Recording-Docket #16-15683. 29

viu

PETITION FOR WRIT OF CERTIORARI
Samuel Kwushue respectfully petitions this Court for a writ of certiorari to
review the Order of the United States Court of Appeals for the Eleventh Circuit
denying a Certificate of Appealability (“COA”) to review the denial of motion to
vacate, correct or set aside sentences pursuant to 28 USCS 2255.

OPINIONS BELOW
The Eleventh Circuit’s Order are unreported but reproduced as Appendix A
and B. The district court’s order denying Petitioner’s motion to vacate is unreported
but reproduced as Appendix C.
JURISDICTION
The United State Court of Appeal for the Eleventh Circuit denied
Reconsideration on February 10, 2020. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution provides in relevant
part: "No person shall be ... deprived of life, liberty, or property, without due process
of law...;" U.S. Const, amend. V.
The Sixth Amendment provides: In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the Assistance of Counsel for
his defense. U.S. Const, amend. VI.
Under the Antiterrorism and Effective Death Penalty Act of 1996, there can
be no appeal from a final order in a §2255 proceeding unless a circuit justice or judge
issues a certificate of appealability.

28 U. S. C. §2253(c) (1).

A certificate of

appealability may issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” §2253(c) (2).

To merit a COA, the Court must

determine "that reasonable jurists could debate whether (or, for that matter, agree
that) the petition should have been resolved in a different manner or that the issues
presented were 'adequate to deserve encouragement to proceed further.'" Miller-El
v. Cockrell, 537 U.S. 322^336 (2003). If a procedural ruling is involved, the petitioner
must "demonstrate that the procedural ruling barring relief is itself debatable among

2

jurists of reason; otherwise, the appeal would not 'deserve encouragement to proceed
further.'" Buck v. Davis, 137 S. Ct. 759, 777 (2017) (quoting Slack v. McDaniel, 529
U.S. 473, 484 (2000)). Obtaining a certificate of appealability “does not require a
showing that the appeal will succeed,” and “a court of appeals should not decline the
application . . . merely because it believes the applicant will not demonstrate an
entitlement to relief.” Miller-El v. Cockrell, 537 U. S. 322, 337 (2003).
STATEMENT OF THE CASE
Petitioner was charged with eight (8) counts of substantive wire fraud offense
in violation of 18 USCS 1343. Doc.l
Petitioner pleaded guilty, was convicted and sentenced to 51 Months
confinement on August 19, 2016. Doc. 40-1-5.
Petitioner timely appealed his conviction and sentences at the United States
Court of Appeals for the Eleventh Circuit. With the benefit of Oral Argument, the
United States Court of Appeals for the Eleventh Circuit Affirmed in an unpublished
opinion in United States v Kwushue 735 F. App’x 693, 694 (11th Cir. 2018)
On November 5, 2019, the United States Supreme Court denied Certiorari in
Kwushue v United States_U.S._, 139 S.Ct.473 (2018).
Petitioner filed a timely post-conviction motion to vacate pursuant to 28 USCS
2255. Doc.106 The District Court denied petitioners motion for relief and denied

3

petitioner’s request for Certificate of Appealability (COA) on June 27, 2019. Doc. 146
Appendix C.
Petitioner appealed the District court’s denial of his 2255 Motion and COA and
petitioned the Eleventh Circuit Court of Appeals for COA. The Eleventh Circuit
Court of Appeal denied Petitioner’s request for COA December 19, 2019. Appendix A.
The Eleventh Circuit Court of Appeals denied petitioner’s petition for reconsideration
February 10, 2020. Appendix B
Petitioner’s petition for Initial Hearing En Banc, though not favored, is
pending at the Eleventh Circuit Court of Appeals.

REASONS FOR GRANTING THE PETITION
The question to be resolved by this petition is whether the courts below erred
in denying a certificate of appealability (COA) to review petitioner’s constitutional
claims pursuant 28 USCS 2255.
The Antiterrorism and Effective Death Penalty Act of 1996, provides " that an
appeal may not be taken to a court of appeals from the final order in a § 2255
proceeding, § 2253(c) (1) (B), unless a circuit justice or judge issues a certificate of
appealability, § 2253(c) (1), upon a substantial showing of the denial of a
constitutional right, § 2253(c) (2).

4

In the instant case, Petitioner's COA request presented six constitutional
issues among others, backed by ample case law to show each issue was debatable by
jurists of reason. The district court denied evidentiary hearing and COA on
procedural ground, and on the ground that Petitioner "failed to make a substantial
showing of the denial of a constitutional right” Doc 146-2-3.
The Supreme Court has held in Murray v. Carrier, All U.S.478 (1986), that
"the rule of procedural default, i.e., that constitutional claims not raised on direct
appeal cannot be considered on habeas review, must yield when failure to
consider the claim would result in a fundamental miscarriage of justice.”"[I]n an
extraordinary case, where a constitutional violation has probably resulted in the
conviction

of one

who

is

actually

innocent, a federal habeas court

may grant the writ even in the absence of a showing of cause.”
Petitioner’s claims of‘Jurisdictional Error’, ‘Factual Innocence’, and Ineffective
Assistance of Trial and Appellate Counsels, though not briefed in Petitioner’s direct
appeal, could not have been procedurally barred in a 2255 motion in the light of
precedents in the United States Supreme Court and the United States Court of
Appeals for the Eleventh Circuit.
The Eleventh Circuit Court of Appeal denied COA because the panel believes
that Petitioner "failed to satisfy the Slack test” See Appendix A; and because
Petitioner "has offered no new evidence or argument of merit to warrant relief.”
Appendix B. A COA analysis requires debatability of claims not merit analysis.

5

In his amicus brief, in Slack v, McDaniel, Docket #98-6322, the Solicitor
General (SG)asserted that "A COA may not issue unless Reasonable Jurists could
conclude both that the habeas petition is not barred by abuse of the writ and that it
present a constitutional claim on which petitioner could prevail.” The requirement
in Section 2253(c) (2) that the prisoner’s showing be "substantial” the SG continued
"means that the right to prevail on the claim must be "debatable among jurist of
reasons”

quoting

Barefoot,

463

U.S.

at

893

n.4.

https://www.iustice.gOv/osg/b rieiMack-v-mcdaniel-amicus-merits.
The SG further asserted that section 2253(c) requires a "substantial” showing
of the denial of a constitutional right,” and a prisoner makes that showing if he
demonstrates that his conviction or sentences may have been imposed in violation of
the Constitution and that the district court may have erred in refusing him relief.”
https://www.iustice.gov/osg/brief/slack-v-mcdaniel-amicus-merits.
In Slack v. McDaniel, 529 U.S. 473 (2000), the United States Supreme Court
held "When the district court denies a habeas petition on procedural grounds without
reaching the prisoner's underlying constitutional claim, a COA should issue (and an
appeal of the district court's order may be taken) if the prisoner shows, at least, that
jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right, and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Petitioner believes
that his 2255 motion and application for COA to the United States Court of Appeals

6

for the Eleventh Circuit should satisfy the requirements for a COA as established by
law and for reasons discussed below.

BACKGROUND
Petitioner was charged with eight counts of substantive wire fraud offense in
violation of 18 USCS 1343. Petitioner pleaded guilty and was sentenced to 51 months
in confinement and three years of supervised release.
Petitioner timely filed an appeal at the United States Court of Appeals for the
Eleventh Circuit in which Petitioner sought review of two sentencing issues and a
Constitutional issue which states that "KWUSHUE’S GUILTY PLEA WAS NOT
KNOWING, VOLUNTARY AND INTELLIGENT BECAUSE THERE WAS AN
INSUFFICIENT FACTUAL BASIS TO SUPPORT IT, IN VIOLATION OF FED.R.
CRIM.P 11(b) (3) AND THE DUE PROCESS CLAUSE OF THE FIFTH
AMENDMENT.” Appellant Brief at 39. With the benefit of Oral Argument, the
United States Court of Appeals for the Eleventh Circuit affirmed.
Petitioner’s petition for Certiorari was denied November 5, 2018. Petitioner
timely filed section 2255 motion to vacate his conviction on the following ground: (1)
Jurisdictional Error,(2) Due Process Error, (3)Factual Innocence of (i) Wire Fraud
Charge, (ii) Restitution Award and (iii) Leadership Role Enhancement, (4) Improper
Forfeiture Procedure, (5) Inaccurate Pre-Sentence Report, (6) Ineffective Assistance
of Trial Counsel, and (7) Ineffective Assistance of Appellate Counsel. Doc. 106-1 Pgs.
1-47

7

The Magistrate Judge’s Report and Recommendation (R & R) adopted by the
District Court erroneously agreed with the respondent that petitioner’s constitutional
claims are procedurally barred because they were decided against Petitioner in
Petitioner’s direct appeal. The district court concluded that “the motion and the files
and records...conclusively show that the prisoner is entitled to no relief...” The
district court denied petitioner’s 2255 motion and denied COA. Doc. 146-3-4.
Appendix C.
Petitioner appealed the denial of his 2255 Motion to vacate and the denial of a
COA to the Eleventh Circuit Court of Appeals. The Eleventh Circuit Court of Appeal
denied Petitioner’s request for COA on the ground that petitioner “’failed to satisfy
the Slack test” Appendix A
The Eleventh Circuit denied Petitioner’s petition for reconsideration on the
ground that Petitioner “’has offered no new evidence or argument of merit to warrant
relief.” Appendix B.
Petitioner’s Petition for Initial Hearing En Banc, though not favored because
of Eleventh Circuit Rule, and is pending in the U.S Court of Appeal for the Eleventh
Circuit.
ARGUMENT
Collateral review of a conviction and sentence is available to a federal
prisoner through 28 U.S.C. § 2255.The statute was enacted to provide a remedy
“exactly commensurate with that previously available through habeas.” United
8

States v. Addonozio, 442U.S. 178,185 (1979).4 “The statute states four grounds upon
which such relief may be claimed:

(1)

‘that

the

sentence

was

imposed

in

violation of the Constitution or laws of the United States,’(2) ‘that the court was
without jurisdiction to impose such sentence,’ (3)‘that the sentence was in excess of
the maximum authorized by law, ‘and (4)that the sentence ‘is otherwise subject to
collateral attack.’” Hill v. United States, 368 U.S. 424, 426—27 (1962) (quoting 28
U.S.C. § 2255).
Petitioner’s claims hinges on three of the above four grounds.
(1) Jurisdictional Error: Doc.106-lpg.l-4
Petitioner asserted in his 2255 motion that the district court should lack
jurisdiction in deciding his case because the indictment charged conduct which should
not fall within the sweep of the charging statute -18 USCS 1343.
The indictment alleged that "Contrary to SNAP rules and regulations, KWUSHUE
provided cash to food stamp recipients in exchange for EBT card payments..., caused
the following wire communications to be transmitted in interstate commerce: ... All
in violation of Title 18, United States Code, Section 1343.” Doc. 1.
The Slack test requires that the matter be not procedurally barred. The
Eleventh Circuit has held in United States v Peter, 310 F.3d 709 (11th Cir.2002) that;
‘Since jurisdictional error implicates a court's power to adjudicate the matter before

9

it, such error can never be waived by parties to litigation.” quoting Louisville
Nashville Railroad Co. v. Mottley, 211 U.S. 149. 152. 29 S.Ct. 42. 53 L.Ed. 126 (1908)
(ordering case dismissed for lack of jurisdiction despite absence of objection from
either party to trial court's previous adjudication of merits). “In other words, the
doctrine of procedural default does not apply.” The Eleventh Circuit concluded. See
Movant s Reply at Page 2. Petitioner’s ‘Jurisdictional Error’ claim, though not a claim
in Petitioner s direct appeal; could not have been decided as concluded by the district
court. The district court’s reliance on Stoufflet v. United States, 757 F.3d 1236,
1239(1 IthCir, 2014) as basis for denial of COA, Doc.146-2, should be misplaced
because Stoufflet did not brief ‘Jurisdictional Error’. Jurist of reasons could debate
that the district court was wrong in its procedural ruling because Petitioner’s claim
is not procedurally barred in a 2255 motion. Petitioner should be encouraged to
proceed further.
The Slack test also require that jurist of reasons would find it debatable
whether the petition states a valid claim of the denial of a constitutional right.
As a general rule, an indictment passes constitutional muster if it (1) "contains all
the elements of the offense charged and (2) fairly informs a defendant of the charge
against which he must defend, and enables him to plead an acquittal or conviction
.... Handing v. United States, 418 U.S. 87, 117 (1974). The indictment. . . must be a
plain, concise, and definite written statement of the essential facts constituting the
offense charged. Fed.R. Crim. P. 7(c) (1).

10

Petitioner believes that the indictment upon which he was convicted stated
facts not constituting the offense charged. Petitioner’s contention is that the charging
statute-18 USCS 1343 neither regulate the SNAP program nor govern its payment
process as alleged. Doc.106-1 pagel-2.
A layman interpretation of the indictment would be that KWUSHUE
(Petitioner) violated the rules and regulations established by 18 USCS 1343 by
providing cash to food stamp recipients in exchange for EBT card payments. 18 USCS
1343 is not a regulatory statute. 18 USCS 1343 "forbids only schemes to defraud, and
not schemes to do other wicked things.” United States v Takhalov, 827 F.3d 1307(llth
Cir. 2016).
The Eleventh Circuit held in United States v. Peter, 310 F.3d 709 (11th
Cir.2002) that ‘Jurisdictional error’ exists where the indictment affirmatively
charged conduct not proscribed by the charging statute.
In United States v Tomeny; 144 F.3d 749 (11th Cir 1998) the Eleventh Circuit held
that a claim is “Jurisdictional” if it can be resolved by examining the face of the
indictment or the record at the time of the plea without requiring further proceeding.”
Petitioner’s believes that his ‘Jurisdictional Error’ claim can be resolved by examining
the face of the indictment.
The Supreme Court held that " there are no constructive offenses: and before
a person can be punished, it must be shown that his case is plainly within the
statute.” Fasulo v United States, 272 U.S. 620: 71 L. Ed. 443 (1926).
ll

If this court finds that the wire fraud statute-18 USCS 1343 regulate not the
SNAP program and SNAP/EBT payment process as charged, the district court should
lack Jurisdiction to convict petitioner, then petitioner was denied a constitutional
right.
From the fore goings, jurist of reasons could debate that Petitioner’s petition
states a valid claim of the denial of a constitutional right. Petitioner should be
encouraged to proceed further.
(2)Factual Innocence: Doc 106-1 pg. 6-11
Petitioner is contending that he is ‘factually’ innocent of wire fraud charge.
Petitioner’s factual innocence claim was not a claim in his direct appeal, so it could
not have been decided on direct review as suggested by the Magistrate Judge’s R&R.
The District Court’s reliance on Stoufflet, 757 F.3d 1236, 1239(llthCir, 2014) supra
should be misplaced because Stoufflet did not brief‘factual innocence’.
The Slack test requires that this claim be not procedurally barred.
In United States v. Bousley: 523 U.S 614, 622, 118 S.ctl604.1610, 140 L.ED. 2d
828 (1998) the Supreme Court held “Consequently, where a defendant has
procedurally defaulted a claim by failing to raise it on direct review, the claim may
be raised in habeas only if the defendant can first demonstrate ‘cause’ and actual
‘prejudice,’... or that he is actually innocent.” id at 622, citing, inter alia, Murray v.
Carrier, 477 U.S. 478, 485, 106 S.Ct 2639, 2643, 91 L.Ed. 2d 397(1986)

12

Petitioner’s factual innocence claim should not be foreclosed in a 2255 motion
by his failure to raise the claim on direct review in the light of Bousley: 523 U.S 614,
622, 118 S.ctl604.1610, 140 L.ED. 2d 828 (1998).
In Murray v. Carrier, 477 U.S.478 (1986), the Supreme Court held that the rule
of procedural default, i.e., that constitutional claims not raised on direct
appeal cannot be considered on habeas review, must yield. when failure to
consider the claim would result in a fundamental miscarriage of justice. “[ I ]n an
extraordinary case, where a constitutional violation has probably resulted in the
conviction

of one

who

is

actually

innocent,

a

federal

habeas court

may grant the writ.”
Jurist of reasons could debate that the district court was wrong in its
procedural ruling because Petitioner’s claim of ‘factual innocence’ should not be
procedurally barred. Petitioner should be encouraged to proceed further because
failure to consider Petitioner’s claim could result in a fundamental miscarriage of
justice.
The Slack test also requires that Petitioner state a valid claim of the denial of
a constitutional right.
In Mckay v United States, 657 F.3d 1190, 1196-97 (11th Cir. 2011) the panel
held; "The actual innocence exception has been applied to actual innocence for the
crime of conviction and actual innocence of a capital sentence.” Petitioner’s contention
is that he is ‘factually innocent’ of the crime of conviction - wire fraud 18 USCS 1343.
13

Petitioner believes that the finding at the guilty plea hearing Doc.49, that Petitioner
violated the wire fraud statute -18 USCS 1343 is an error for the following reasons:
(i)The statute of conviction 18 USCS 1343 regulate not the SNAP/EBT
program as alleged,
(ii) The conduct described in the indictment as "provided cash to food stamp
recipients in exchange for EBT card payments...... ” should not be within the
sweep of the statute of conviction 18 USCS 1343, and
(iii) The EBT wire transmission is an integral part, and a legally approved EBT
payment process, regulated by Code of Federal Regulation, 7 CFR, 274.8(10)
(i), and is entirely intra state. Doc. 106-2 Pg. 15
The statute of conviction- 18 USCS 1343 "forbids only scheme to defraud, not
schemes to do other wicked things, United States v Takhalov, 827 F.3d 1307(llth Cir.
2016).

18

USCS

1343

does not regulate

the

Supplementary Nutritional

Administration Program (SNAP). Defendant’s conduct which the government
described as "Contrary to SNAP rules and regulation” should not offend the wire
fraud statute because 18 USCS 1343 does not govern the SNAP program. Petitioner
believes that his factual conduct of "cash exchange for food stamp” which the
government described as ‘Trafficking,’ Doc.50-80 (not as wire fraud) should not
constitute facts that supports a wire fraud charge.
The Eleventh Circuit held in United States v Maxwell, 579 F.3d 1282(llth Cir.
2009) that "the specific intent required under the wire fraud statute is the intent to
14

defraud, not the intent to violate a particular statute or regulation.” Quoting Paradies
98 F.3d 1266(11th Cir. 1996). This holding shows that the wire fraud statute should
not reach the violation of a regulation as the indictment alleged.
The government hinged its wire fraud charge on the wire transmission which
occurred at KD Metro Store. Doc.l
The SNAP/Electronic Benefit Transfer (EBT) payment system is a legally approved
Federal payment process governed by Code of Federal Regulation 7 CFR, 274.8(10)
(i). Doc 106-2 pg.15. Its use in the execution of the SNAP/EBT transaction should not
offend the elements of the wire fraud statute. See Parr v United States, 363 U.S 370
(1960) which held that "It cannot be said that mailings made or caused to be made
under the imperative command of duty imposed by Federal law are criminal under
the federal mail fraud statute.” Petitioner’s conduct described as ‘Trafficking’ and the
use of a legally compelled wire in the federal program are not facts that should
support a wire fraud charge. Petitioner’s innocence of the crime charged should be
clear and obvious on the face of the charging instrument. Doc.l.
The district court erred because it concluded that the matter was "decided
adversely to petitioner by the Eleventh Circuit” Doc. 146-2, when the claim was not
even briefed in petitioner’s direct appeal. Appellant Brief Docket #16-15683
If this court finds that Petitioner’s conduct described as ‘Trafficking’, and the
use of a ‘legally compelled’ wire in the SNAP/ EBT program are not facts that supports
a wire fraud charge, then petitioner was denied a constitutional right.
15

From the fore goings, jurist of reasons could debate that the district court was
wrong in finding that petitioner’s ‘factual innocence’ claim is procedurally barred.
Jurist of reasons could also debate that petitioner stated a valid claim of the denial
of a Constitutional right and should be encouraged to proceed further.
(3) Inaccurate Pre- Sentence Report. Doc.106-1 pg. 24-28
Petitioner did not raise the Inaccurate Pre-Sentence Report (PSR) claim in his
direct appeal because petitioner’s trial counsel provided ineffective assistance of
counsel and because the district court violated petitioner’s due process right.
Prior to Petitioner’s sentence hearing, petitioner sent a letter to trial counsel
in which Petitioner requested that inaccurate information in the PSR be corrected,
and that relevant document be filed to (i) preserve issues for appeal, (ii) rebut
inaccurate information in the PSR and (iii) as mitigating documents. Doc. 106-2 pg.
10-11. Trial counsel failed to file the requested documents in the district court, so the
documents were not available in the record below for appellate counsel’s use.
Petitioner could not include the ‘Inaccurate Presentence Report’ Claim on direct
review because of trial counsel’s deficient performance. Petitioner was prejudiced
because the district court relied on the inaccurate information in the PSR to convict
and sentence Petitioner. Prejudice should exist because counsel failed to preserve this
issue for appeal.
Petitioner filed a timely objection to the Pre-Sentence Report with the
probation officer before sentence hearing pursuant to FRCP Rule 32. Doc. 106-2 pg.
16

7-8. Petitioners objections were ignored by the district court. Federal Rules of
Criminal Procedure Rule 32; under Sentencing and Judgment, provides that: ‘After
receiving objections, the probation officer may meet with the parties to discuss the
objections. The probation officer may then investigate further and revise the
presentence report as appropriate.” The Probation officer acknowledged the receipt
of Petitioner’s objections to Pre-Sentence report. Doc. 106 -2 pg. 9, but failed to revise
the PSR as requested. Facts necessary to be considered during sentence hearing were
omitted from the PSR. Petitioner was denied due process of law.
The District Court erred when it asserted that; ° The court agrees with
Respondent that ground six is procedurally default....The exhibits to which Movant
refers are documents that are dated prior to sentencing...” Movant show’s no reason
why he could not have submitted these materials to appellate counsel and fails to
show cause for his procedural default.” Doc.141 Pg. 14
The district court overlooked the fact that the appellate court is a record
reviewing court. The United State Court of Appeals is not a court of first instance
which deals with physical evidence. However, petitioner’s 2255 motion explained the
‘cause’ of the procedural default. Doc.106-1 pg. 27-28
Petitioner did not brief Inaccurate Presentence Report because document’s
necessary to support it were not available in the record below for appellate counsel’s
use for the following reasons (1) petitioner was denied ‘due process’ by the probation
officer’s failure to revise the PSR after petitioner’s objections was received, Doc. 106-

17

officer’s failure to revise the PSR after petitioner’s objections was received, Doc. 1062 Pg. 9, and (2) because of the ineffectiveness of petitioner’s trial counsel. Counsel
failed to file supporting and related documents needed to rebut erroneous information
in the PSR and to preserve the issue for appeal. Doc. 106-2 pg. 10-11 and Doc.106-2
Pg- 1
Petitioner could not object to the inaccurate pre-sentence report at sentence hearing
because of trial counsel’s threat of‘a longer sentence’ Doc 106-2 pg.l
Reasonable jurist could debate that Petitioner has shown ‘cause’ for his procedural
default of the claim.
Turning to the second prong of the Slack test, the Supreme Court has held that
"convicted defendants have a due process right to be sentenced on the basis of
accurate and reliable information” United States v Tucker, 404 U.S 443, 477. 92 S.Ct.
589, 591, 30 L.Ed. 2d 592 (1972).
The Eleventh Circuit held in United States v Boatner, 966 F.2d 1575 (11th Cir,
1992) "To demonstrate a technical transgression of Rule 32(c) (3) (D), all that is
necessary is that an allegation of a specific factual error in the presentence
investigation report was before the district court and that the sentencing judge did
not make either of the alternative findings. See United States v. O’Neill, 767 F.2d
780, 787 (11th Cir.l985).In United States v Aleman 832 F. 2d 142 (11th Cir. 1987) the
Eleventh Circuit held "The district court must take specific action only if the defense
alleges that there are "factual inaccuracies" in the report.” The Pre-Sentence
18

contains inaccurate information and omission of material facts. Doc. 106-lpg 24-28.
The inaccurate information are:

i)

That 18 USCS 1343 regulates the SNAP/ EBT program.

ii)

That ‘KD Metro’ is a ‘Sole Proprietorship’. PSR Paragraph 28

iii)

That "willing participants had to present their EBT card and PIN number
to the defendant.” PSR paragraph 28.

iv)

The omitted fact in the PSR is the Seizure of KD Metro’s Bank balance of
$2,695.94 under the forfeiture amount. PSR paragraph 17. See Doc.106-1
pg.26 Doc. 50-86. The omission is material.
In Petitioner’s 2255 motion, Petitioner has shown that: (i) it is inaccurate that

the Charging Statute 18 USCS 1343 regulates the SNAP/EBT program
(ii) demonstrated in his section 2255 motion that Kuriof Daleth Enterprises
LLc d/b/a ‘KD Metro’ in court record is a ‘S’ Corporation.Doc. 106-2 pgs. 12, 16
and 17.
(iii) Paragraph 15 (b), of the PSR.Doc.50 pg. 13 “I entered my PIN” shows that
the recital that " "willing participants had to present their EBT card and PIN
number to the defendant” is false.
(iv)The seizure of $2,695.94, the ‘S’ Corporation’s bank account balance was
omitted from the PSR. See PSR paragraph 17. Doc. 106-lpg. 25 and Doc.106-2 pg.2,
see Movant Objection to R&R pg.16

19

The inaccurate information in the PSR impacted Petitioners rights. Petitioner was
prejudiced because the District Court relied on the inaccurate recitals in the PSR to
convict Petitioner of Wire fraud, Doc. 40-1, enhance petitioner’s sentence as a ‘leader’,
without a finding that petitioner exercised control or authority over another
‘participant’, Doc.106-1 pg. 15, awarded restitution against petitioner instead of the
corporation which received the proceeds of the food stamp transactions,Doc. 106-1
pg.11-14

and

ordered

forfeiture

of

fund

belonging

to

unindicted

Corporations.Doc. 106-1 pg.21-24
Petitioner was prejudiced by the inaccurate information and omission in the
PSR.
Jurist of reasons could debate that petitioner stated valid claim of the denial of a
constitutional right and should be encouraged to proceed further.
(4)Due Process Error: Doc.106-1 pg. 5-6.

Petitioner believes he was denied due process of law which caused him to be
convicted and "sentenced in violation of the Constitution and the laws of the United
States.”

In Murray v. Carrier, 477 U.S.478 (1986), the Supreme Court held that the rule
of procedural default, i.e., that constitutional claims not raised on direct
appeal cannot be considered on habeas review, must yield when failure to
consider the claim would result in a fundamental miscarriage of justice. “ [I]n an

20

extraordinary case, where a constitutional violation has probably resulted in the
conviction

of one

who

is

actually

innocent,

a

federal

habeas court

may grant the writ. In the light of Murray v Carrier, All U.S.478 (1986), failure to
consider petitioner’s due process error claim would result in a fundamental
miscarriage of justice.
The Due Process Clause protects a person from conviction except the
indictment contains facts necessary to constitute the crime with which he is charged.
The indictment. . . must be a plain, concise, and definite written statement of the essential
facts constituting the offense charged. Fed.R. Crim. P. 7(c) (1).
In order to determine that the indictment contain facts that constitute the
crime charged, the Supreme Court has mandated that the district courts compare: (1)
the conduct to which the defendant admits with; and (2) the elements of the offense
charged in the indictment or information. This is to determine ‘’that the conduct
which the defendant admits constitutes the offense charged.” McCarthy v. United
States, 394 US at 467, 89 S.Ct at 1171. Quoting from Advisory Committee for
Criminal Rules.

The indictment upon which petitioner was convicted contains facts which
should not offend the charging statute-18 USCS 1343. If the District court had
complied with the mandate of the Supreme Court and the requirements of FRCP Rule
11, the District court would have found that petitioner’s conduct described as

21

Trafficking’ would not satisfy the elements of a wire fraud charge. The district court
denied petitioner the right to due process of law.

In Henderson u Morgan 426 US 637 (1976) the supreme court held "A plea may
be involuntary either because the accused does not understand the nature of the
constitutional protections that he is waiving, see, e. g., Johnson v. Zerbst, 304 U. S.
458, 464-465, or because he has such an incomplete understanding of the charge that
his plea cannot stand as an intelligent admission of guilt. Without adequate notice of
the nature of the charge against him, or proof that he in fact understood the charge,
the plea cannot be voluntary in this latter sense. Smith v. O'Grady, 312 U. S. 329.

The Supreme Court held in McCarthy v United States, 394 U.S 459 (1969).
"Moreover, because a guilty plea is an admission of all the elements of a formal
Criminal charge, it cannot be truly voluntary unless the defendant possesses an
understanding of the law in relation to the facts.” At Petitioner’s plea colloquy
proceeding, the following exchange occurred:

COURT: DO YOU AGREE WITH THE PROSECUTOR’S SUMMARY OF WHAT
YOU DID?
PETITIONER... I TRULY EXCHANGED CASH FOR FOOD STAMPS
MS KAPLAN: (Trial Counsel)... MR KWUSHUE... DID NOT KNOW THAT WHAT
HE WAS DOING WAS WIRE FRAUD, HE DID UNDERSTAND THAT HE WAS
BREAKING THE RULES AND VIOLATING THE CONSTRAINTS OF THE
PROGRAM WHICH WAS IMPROPER.
22

COURT: IS THAT YOUR UNDERSTANDING, MR. KWUSHUE?
PETITIONER: YES MA’AM. Doc. 49-24-25
This exchange between the Court, Petitioner and Petitioner’s trial counsel, should
show that Petitioner lacked an understanding of the "law in relation to the facts” of
the charge. Petitioner’s response should not be an intelligent admission of guilt. In
the light of record facts, no juror would have convicted petitioner of wire fraud.
A reasonable juror could debate that petitioner had no understanding of the charges
against him because ‘cash exchange for food stamp’ should not be a "factual basis” for
a wire fraud charge.
Jurist of reasons could debate that the petition states a valid claim of the denial of a
constitutional right and that petitioner should be encouraged to proceed further.
(5) Ineffective Assistance of Trial Counsel. Doc 106-lPg 31-45
The Sixth Amendment guarantees the defendant in a criminal case the right
to effective assistance of counsel to help ensure that our adversarial system produces
just results. Strickland v Washington, 466 U.S. at 685. Consequently, the Sixth
Amendment requires that “counsel act in the role of an advocate.” United States v.
Cronic, 466 U.S. 648, 656 (1984).

In line with Slack test, ineffective assistance of counsel claim is not
procedurally barred in a 2255 motion because the record is usually not fully developed
in the courts below to facilitate such review on direct appeal. See United States v.
Scott, 136 F. App’x 273 (11th Cir. 2005).

23

To show constitutionally ineffective assistance of counsel, petitioner must establish
deficient representation by counsel and prejudice. Strickland v Washington, 466 U.S
668, 690-92, 104 S.Ct. 2052, 80 L.Ed. 2d 674 (1984). In any case presenting an
ineffectiveness claim, "the proper measure of attorney performance remains simply
reasonableness under prevailing professional norms. Padilla v Kentucky, at 366, 130
S.Ct. 1473 (quoting Strickland v Washington, at 688, 104 S.Ct. 2052).

The

performance inquiry must be whether counsel's assistance was reasonable
considering all the circumstances. Strickland, supra, at 688, 104 S.Ct. 2052.
(i)Counsel Misadvise:

A Counsel’s “ignorance” of a point of law that is

fundamental to his case combined with counsel’s failure to perform basic research on
the element of petitioner’s conduct and the charging statute should be an example of
unreasonable performance. See Hinton u. Alabama, 134 S. Ct. 1081, 1089 (2014).
Petitioner’s trial counsel representation on the record at the plea colloquy that; " I
HAVE DISCUSSED WITH MR KWUSHUE. MR KWUSHUE DOES NOT KNOW
THAT WHAT HE WAS DOING WAS WIRE FRAUD, HE DID UNDERSTAND THAT HE
WAS BREAKING THE RULES AND VIOLATING THE CONSTRAINTS OF THE
PROGRAM WHICH WAS IMPROPER.”
Breaking the rules and violating the constraints of the program ” should not offend the
elements of wire fraud-18 USCS 1343. The wire fraud statute is not a regulatory
statute. Counsels misadvise made petitioner to plead guilty to wire fraud charges.
Counsel’s assertion at the plea colloquy demonstrates that counsel did not research
the elements of the crime charged before advising petitioner to plead guilty to wire
24

fraud charges. Counsel s performance should be unreasonable under prevailing
professional standard. There is a probability that the outcome of the proceeding
would have been different but for counsel’s misadvise. Petitioner would not have
pleaded guilty but would have insisted on going to trial.
The district court erred when it concluded that “ there is no error in regard to
the application of section 1343 to Movant’s conduct and, thus, there is no deficiency
by counsel on the matter that affected the validity of Movant’s guilty plea” Doc.141
pg.21.The district court overlooked the fact that the wire fraud statute 18 USCS 1343
is not a regulatory statute. 18 USCS 1343 regulate not the SNAP/EBT program and
payment process. The Eleventh Circuit has held that “the specific intent required
under the wire fraud statute is the intent to defraud, not the intent to violate a
particular statute or regulation” United States v Maxwell 579 F.3d 1282(11th
Cir.2009) quoting Paradies, 98 F.3d 1266 (11th Cir. 1996). Jurist of reason could
debate that 18 USCS 1343 should not reach petitioner’s.conduct which the indictment
described as “Contrary to SNAP rules and regulation.”
Petitioner was prejudiced because petitioner plead guilty to wire fraud charge
and was convicted for a crime which petitioner believes he did not commit. Petitioner
would have insisted on going to trial.
The outcome of the proceeding would have been different but for counsel’s deficient
performance.

25

In addition to counsel’s misadvise, counsel expressly threatened petitioner and
his family with ’a longer sentence’ Doc, 106-2 Pg. 1. Counsel also failed to: (1) file
supporting documents to preserve issues for appeal Doc.106-2 pg. 10-11, (2) contest
the jurisdiction of the court, (3) violated petitioners due process right by failing to
present Petitioner with PSR on time, (4) contest improper forfeiture procedure, (5)
argue Loss Amount using "Government Benefit Rule”,( 6) request the revision of PreSentence report. Doc. 106-1 pg. 29-45.
(ii) Failure to file Mitigating Documents: Petitioner requested that trial Counsel
file related documents to (a) preserve issues for appeal, (b) as mitigating documents,
(c) to rebut erroneous information and to show that the PSR is inaccurate. Doc 106-2
pg. 10-11.The documents requested to be filed comprises of: seized bank account
balance omitted from the PSR, corporation bank statement of account showing the
account that received the proceeds of food stamp transaction, corporation tax
document to show that the recital that KD Metro is a ‘Sole Proprietorship’ in PSR is
inaccurate. Counsel’s failure to file relevant documents requested by petitioner
should be deficient under prevailing professional standard.
Petitioner was prejudiced because (i) restitution was awarded against
petitioner (instead of the Corporation) without a finding that Petitioner possessed the
restitution amount, (ii) issues were not preserved for appeal, and (iii) the court
ordered the forfeiture of unindicted corporation’s fund. The outcome of the proceeding
would have been different but for counsel’s deficient performance.

26

(iii) Failure to argue Loss Amount with ‘Government Benefit Rule’ Petitioner specifically requested that counsel argue ‘Estimated Loss Amount
using the ‘Government Benefit Rule’ in the United States Sentencing
Guideline USSG 3B1.1 n.3 (F) (ii) which provides that “In a case involving
government benefits (e.g., grants, loans, entitlement program payments), loss
shall be considered to be not less than the value of the benefits obtained by
unintended recipients or diverted to unintended uses, as the case may be.”
Doc.106-2 pg. 10. If estimated loss amount was argued under the "Government
Benefits” rule, the following questions would have been raised and determined:
(a) whether petitioner qualify as a recipient or an unintended recipient?
Whether petitioner diverted funds which he did not receive, and how much
food item was purchased by the KD Metro store? If these questions are raised
and determined, petitioner’s increased sentence exposure under loss amount
would have been eliminated. Prejudice exists because the loss amount
generated by counsel’s strategy increased petitioner’s sentence exposure.
(iv) Counsel’s Express Threat-Counsel’s express threat of "a longer sentence”
Doc.106-2 pg.l, in response to petitioner’s request that the probation office revise
inaccurate information in the PSR should be below the standard of performance
expected of a counsel guaranteed by the Constitution.
The district court erred when it suggested that Counsel’s threat was a ‘rebuke.’
Doc.141 pg. 7 footnote 4.Under prevailing professional standard,no competent counsel
would ‘rebuke’ a client for requesting counsel’s compliance with the provision of the
27

law. Petitioner was prejudiced because Petitioner could not object to the denial of his
Constitutional rights at the sentence proceeding for fear of ‘a longer sentence’
In the light of the above facts jurist of reasons could debate that petitioner’s petition
states a valid claim of the denial of a constitutional right.
(6) Ineffective Assistance Appellate Counsel. Doc. 106-1 pg. 45-47

The Sixth Amendment guarantees the defendant in a criminal case the right
to effective assistance of counsel to help ensure that our adversarial system produces
just results. Strickland v Washington, 466 U.S. at 685. Consequently, the Sixth
Amendment requires that “counsel act in the role of an advocate.” United States u.
Cronic, 466 U.S. 648, 656 (1984). A criminal appellant is constitutionally entitled to
the effective assistance of counsel in his direct appeal. Evitts v. Lucey, 469 U.S. 387,
396, 105 S. Ct. 830, 83 L. Ed. 2d 821 (1985);
The American Bar Associations Standard (ABA) 4-9.2 (g) provides that " Appellate
counsel should discuss with the client the arguments to present in appellate briefing
and at argument, and should diligently attempt to accommodate the client’s wishes.”
Petitioner and appellate counsel carefully selected and agreed on the issues
presented in Petitioner’s brief and for argument. The selected issues were notarized
by counsel. In Petitioner’s direct appeal, petitioner presented three claims comprising
of two sentencing claims- Improper Loss Amount Calculation and Improper
Leadership Role Enhancement and a Constitutional claim which states that

28

"KWUSHUE’S GUILTY PLEA WAS NOT KNOWING, VOLUNTARY AND
INTELLIGENT BECAUSE THERE WAS AN INSUFFICIENT FACTUAL BASIS TO
SUPPORT IT, IN VIOLATION OF FED.R. CRIM.P 11(b) (3) AND THE DUE
PROCESS CLAUSE OF THE FIFTH AMENDMENT” Appellant Brief at 39.
The Eleventh Circuit Court of Appeal granted Petitioner the rear opportunity to
present his case and to argue his constitutional claim at Oral Argument. Petitioner’s
appellate counsel chose to abandon Petitioner’s Constitutional claim at Oral
Argument against petitioner’s express wishes that counsel should treat issue #3 (the
Constitutional claim) as "the most important issue in the appeal”. Doc.106-2 pg.41.
See

Eleventh

Circuit

Oral

Argument

Recording

of

08/17/2018

at

www.Call.uscourts.gov . Oral Argument Audio Recording-Docket #16-15683.
In Cross v United States, 893 F.2d 1287(11th Cir. 1990), this court held that
"Deficient performance is that which is objectively unreasonable and falls below the
wide range of competence demanded of attorneys in criminal cases, quoting
Strickland, 466 U.S at 688; 104 S.Ct. at 2064; Boschen, 845 F.2d at 922; Matire v
Wainwright, 811 F.2d 1430. 1435 (11th Cir, 1987)
The fact that the abandoned issue #3 is a briefed constitutional issue for which
petitioner specifically wrote that counsel should treat as "the most important issue
in his appeal” Doc.106-2 pg.41 should establish that counsel’s performance is
deficient under ABA standard and under prevailing professional norm.

29

To establish prejudice, this court in Cross, 893 F.2d 1287(1 ICir. 1990) supra, held "In
the context of an ineffective assistance on appeal claim, that in order to determine
prejudice the court must first perform "a review of the merits of the [omitted or poorly
presented] claim." Id. at 1290. If the Court finds that the neglected claim would have
a reasonable probability of success on appeal, then according to Cross it is necessary
to find "appellate counsel's performance prejudicial because it affected the outcome
of the appeal." Petitioner’s appellate counsel denied petitioner the opportunity of the
Oral Argument panel’s consideration of his only Constitutional and strongest claim
in his direct appeal. The abandoned Constitutional claim at oral argument should be
a ‘stronger’ claim and should have the highest probability of success on appeal.
Petitioner was prejudiced because the abandoned constitutional claim affected the
outcome of the appeal. Petitioner would have prevailed on appeal but for appellate
counsel’s error.
From the foregoing, jurist of reason could debate that the petition states a valid claim
of the denial of a constitutional right.

30

REASONS FOR GRANTING CERTIORARI
Certiorari should be granted because petitioner has shown: (1) that the
sentence was imposed in violation of the Constitution or laws of the United States,’
(2) that the court was without jurisdiction to impose such sentence,’...and (3) that
the

sentence

(•

is

otherwise

subject

to

collateral

attack.’

Hill

v.

United States, 368 U.S. 424, 426—27 (1962) (quoting 28 U.S.C. § 2255).
Certiorari should be granted because Petitioner has shown that "jurists of reason
could disagree with the district court's resolution of petitioner’s constitutional claims
or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322,_336 (2003)

31

CONCLUSION
Without a COA, Petitioner cannot obtain appellate review on the merits of his
constitutional claims. The record standing alone should conclusively demonstrate
that petitioner is entitled to relief.
For the foregoing reasons, the Court should grant the petition for a Writ of Certiorari.
Respectfully submitted,
Sainuel Kwushue 67311-019
6001 Kahiti Trc.
Union City, GA 30291

32

